          SENSITIVE BUT UNCLASSIFIED

      United States Department of State
    and the Broadcasting Board of Governors
              Office of Inspector General




            Report of Inspection


      Broadcasting Board of
          Governors
Report Number ISP-IB-08-12, February 2008




                            IMPORTANT NOTICE
This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Office of Inspector General. No secondary distribution may be made,
in whole or in part, outside the Department of State or the Broadcasting Board of
Governors, by them or by other agencies or organizations, without prior authorization
by the Inspector General. Public availability of the document will be determined by
the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of
this report may result in criminal, civil, or administrative penalties.




          SENSITIVE BUT UNCLASSIFIED
                     PURPOSE, SCOPE AND METHODOLOGY
                            OF THE INSPECTION

This inspection was conducted in accordance with the Quality Standards for Inspections, as issued
by the President’s Council on Integrity and Efficiency, and the Inspector’s Handbook, as issued by
the Office of Inspector General for the U.S. Department of State (Department) and the Broadcasting
Board of Governors (BBG).

PURPOSE:

          The Office of Inspections provides the Secretary of State, the Chairman of the BBG,
   and Congress with systematic and independent evaluations of the operations of the Department
   and the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign
   Service Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with maximum
           efficiency, effectiveness, and being accurately and effectively represented; and whether
           financial transactions and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the likelihood
           of mismanagement; whether instance of fraud, waste, or abuse exist: and whether
           adequate steps for detection, correction, and prevention have been taken.


   METHODOLOGY:

   In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
   circulated, reviewed, and compiled the results of survey instruments; conducted on site
   interviews and reviewed the substance of the report and its findings and recommendations with
   offices, individuals, organizations, and activities affected by this review.
                    SENSITIVE BUT UNCLASSIFIED



                           TABLE OF CONTENTS


KEY JUDGMENTS     ........................................................1
CONTEXT   .............................................................3
EXECUTIVE DIRECTION        ...................................................5
BOARD STAFF .
            ..........................................................9
       Executive Director Authorities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
       Human Resources Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
HIRING FREEZE .   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
RELATIONS WITH THE GRANTEES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
       Board Staff – Grantee Communications and Information Sharing . . . . . . . 15
       Grantee Meetings with their Boards of Directors . . . . . . . . . . . . . . . . . . . . . 16
BROADCASTING BOARD OF GOVERNORS’ BUDGET PROCESS                               . . . . . . . . . . . . . . . . . . . . . . . . 17
STRATEGIC PLANNING SUPPORT   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
       Strategic Planning, Language Service Review, and Budget Process . . . . . . . 20
       Language Service Review Committee . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
       Transparency and Congressional Input . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
FORMAL RECOMMENDATIONS .             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
INFORMAL RECOMMENDATIONS               . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
PRINCIPAL OFFICIALS     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
ABBREVIATIONS .   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
APPENDIX A   – ORGANIZATIONAL CHART . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 31




                      SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                KEY JUDGMENTS


     •   The Broadcasting Board of Governors (BBG)1 is serving U.S. foreign policy
         interests well. Board functions under its new, proactive chairman are cordial
         and focused on its mandate. The Board is served by an energetic, dedicated
         group of governors who contribute more than their part-time status
         suggests.

     •    The organization of the BBG’s governing board is unique within the federal
         government. Its Congressionally mandated collective chief executive officer
         (CEO) structure and nondelegable supervisory authorities require the
         support of a robust professional staff to carry out its daily operations.

     •    The Board staff is highly competent and enthusiastic. Rationalization of its
         functions would promote more effective use of their talents in BBG strategic
         planning and carrying out Board supervision on its behalf.

     •   The Board is seeking to make its work more transparent to the entities it
         supervises, but despite progress, more needs to be done, particularly during
         the budget exercise and the Language Service Review.

   The inspection took place in Washington, DC, between September 3 and De-
cember 12, 2007. Ambassador John Monjo (team leader), Tom Carmichael (deputy
team leader), James Dandridge, Martha Goode, Siobhan Hulihan, and Marjorie
Lynch conducted the inspection.




1
 “The Broadcasting Board of Governors” is both the official name of the agency and its over-
sight board. The report refers to the oversight board as the “Board.”



OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   1 .


                        SENSITIVE BUT UNCLASSIFIED
         SENSITIVE BUT UNCLASSIFIED




2 .   OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


         SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                         CONTEXT


    Congress created the BBG as a broadcasting oversight board within the U.S.
Information Agency through the International Broadcasting Act of 1994 (P.L.
103-236), then made it an autonomous federal agency encompassing all govern-
ment-sponsored, nonmilitary, international broadcasting through the Foreign Affairs
Reform and Restructuring Act of 1998 (P.L. 105-277). The BBG’s Congressional
mandate is to “supervise” and is not limited to providing general oversight or guid-
ance.

    The Board supervises broadcasting and support entities with varied legal and
organizational frameworks. The Voice of America (VOA), the Office of Cuba
Broadcasting, and the International Broadcasting Bureau (IBB) are federal entities.
Radio Free Europe/Radio Liberty, Radio Free Asia, and the Middle East Broadcast-
ing Networks are Congressionally created, BBG-funded, nonprofit organizations
that resemble private corporations. (An organizational chart is located in Appendix
A.) In this report and elsewhere, these nonprofit organizations are referred to as
grantees, but Congress gave the Board supervisory authorities over these entities
that extend beyond those that other U.S. government agencies generally execute over
their grantees.

    The Board is a bipartisan body of eight part-time special government employ-
ees (four Republicans and four Democrats) and the Secretary of State (ex officio) that
    2

serves as a collective CEO. Aside from the monthly meetings, the Board exercises
day-to-day supervision through the Board staff and the IBB, which has control
over the government entities and provides some services for all entities. The BBG
governors also make up committees addressing issues related to individual broad-
cast entities or BBG-wide functional areas. The Board also composes the boards of
directors for each of the grantee entities.




2
 According to 22 USC § 6203, the President selects BBG governors from among “Americans dis-
tinguished in the fields of mass communications, print, broadcast media, or foreign affairs” who
are not regular full-time U.S. government employees.


OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008      3 .


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



          These BBG entities broadcast to more than 155 million people in 60 languages
      by radio and increasingly by television, Internet, and other technologies on an an-
      nual budget of $679 million. Approximate staffing sizes for these entities vary from
      VOA’s 1,350 employees to the Office of Cuba Broadcasting’s 170 employees. BBG-
      wide totals are near 3,450 employees.3

           In office since June 2007, the new Chairman of the Board, along with his fel-
      low governors, considers the BBG to be in a “transition phase” and is focusing on
      improving within the limits of the existing legislation the Board’s roles and functions
      in its supervision of its various entities. This report presents recommendations for
      changes permissible within those same parameters.




      Figures are for FY 2007 drawn from the Broadcasting Board of Governors FY 2008 Budget
      3

      Request.


4 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                         EXECUTIVE DIRECTION


    The Board, in its present structure, has successfully responded to U.S. foreign
policy and budget needs, including shifting resources among language services, the
rapid development of the Middle East Broadcasting Networks, the move of Radio
Free Europe/Radio Liberty headquarters from Munich to Prague, and develop-
ment of Urdu programming into Pakistan. The Board also has moved BBG from
a shortwave radio broadcaster to an increasingly multi-media news delivery system.
Recent disagreements and alleged misconduct involving a Board member and well-
publicized programming missteps have drawn media and other attention from these
broader, solid BBG accomplishments under its present structure.

    Congress mandated the Board’s structure, and it is outside the scope of this
report, but there are differing opinions on whether the part-time, collective CEO
structure, unique to the federal government, is optimum. Nevertheless, public ser-
vice on the Board has attracted, among the present governors, dedicated, energetic,
and highly qualified public servants who provide valuable private sector expertise.
The governors make their contributions at the personal sacrifice of time and energy
beyond what their part-time status implies and with compensation much less than
that which comparable time spent at their private pursuits could provide. Several
Board governors themselves desire change within the Board and feel that the newly
appointed Chairman represents a chance for a more congenial and productive Board.

     The new Chairman is establishing credentials as an activist who is leading the
Board to progress on several announced goals. At his initial BBG town hall meeting,
he said that one of his first goals was to get the Board to work with greater congeni-
ality and efficiency. He and other governors have said they want to develop greater
communication and transparency within BBG concerning the Board’s decisions and
processes, create a positive public profile, enhance communications with Congress,
and strengthen cooperation with other government entities. The Board is also seek-
ing to rationalize the committee structure and strengthen the Board staff. They have
made progress on these goals – several of which parallel recommendations in this
report.




OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   5 .


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



          The new Chairman has had some success in creating an atmosphere of openness
      and collegiality within the two-party Board. Board governors and others repeatedly
      underlined that the new Chairman is successfully refocusing Board energies from
      internal disputes to its mandated functions. An OIG team representative attended
      monthly Board meetings and found them well-run, substantive, congenial, and with
      no apparent political divides.

           Much needs to be done to improve communications between the Board and the
      various levels of the federal and grantee broadcasting and support entities. Observ-
      ers have, for years, criticized the lack of transparency in the Board’s working. Prog-
      ress in this area would improve morale. This report addresses issues of transparency
      in the sections on the budget and Language Service Review processes – two specific
      sources of BBG-wide complaints.

          The Board’s interest in increased transparency within the agency has been re-
      flected in its hiring of an outside consultant to develop a public affairs and inter-
      nal communications strategy. As part of that current reach for greater openness,
      the Chairman and the Board have engaged in a series of town hall meetings at the
      broadcasting entities, which have been generally well received. The governors also
      have begun “drop-in” staff visits at the working level to raise the Board’s personal
      profile and BBG personnel morale. The strategy seeks to enhance sharing informa-
      tion among the entities and to build a stronger BBG identity among all its entities,
      including the grantees.

           The Board has been considering an outreach program to relevant institutions
      and the broader American public to let them know about BBG broadcasting and its
      importance to U.S. government foreign policy objectives. This initiative could help
      address BBG’s long-term personnel recruitment efforts. A new communications
      committee met for the first time during the inspection to consider this and other
      initiatives. This strategic approach with its human resources implications is a positive
      step.

          The new Board Chairman has been proactive in his outreach and consultations
      with Congress. He and other governors have been appearing before Congressional
      members to review the Board’s perspectives on individual language services and
      broader BBG-wide broadcast issues.




6 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



     The BBG’s new 2008-2013 Strategic Plan tracks well with the U.S. National Strat-
egy for Public Diplomacy and Strategic Communication. Both documents underline
the need for tailoring communications programs with the most appropriate and
effective media available for specific audiences, modernizing U.S. government techni-
cal capacity, sharing intergovernmental audience analysis information, and expanding
outreach to audiences in nondemocratic, information-starved, and Muslim communi-
ties. These priorities are reflected in the active cooperation of the Board with other
U.S. government international communications agencies.

     The value of the Secretary of State’s choice of her Under Secretary of Public
Diplomacy and Public Affairs to serve as her representative to the Board is clear.
She has been uniquely effective in this role, setting the standard for Board participa-
tion, and winning praise from the other governors for her and her staff. Her atten-
tion to this responsibility has paid off handsomely for U.S. international broadcast-
ing.

    The Under Secretary’s and her staff ’s dedication has maximized the Board’s com-
munication and cooperation with various U.S. public diplomacy and strategic com-
munications players. She has taken great advantage of her central position within the
U.S. government strategic communications community to help keep BBG’s activities
synchronized with broader U.S. government strategic activities. The Under Secre-
tary’s chairmanship of the Strategic Communications Policy Coordination Commit-
tee helps her keep the Board aware of the U.S. government’s international broadcast-
ing activities and priorities, and involve it in other U.S. government initiatives. For
instance, the Under Secretary has named the Board and the Department of State’s
(Department) Bureau for Intelligence and Research as co-chairs of her policy coordi-
nation committee’s subcommittee on government-wide audience research sharing.

    The Under Secretary for Public Diplomacy and Public Affairs and the Board
cooperate closely on ensuring the Department’s foreign policy perspectives are part
of Congressionally mandated consultations during BBG’s Language Service Review
– the Board’s principal mechanism for strategic planning and management. These
consultations include guidance from the highest levels of the Department on U.S.
foreign policy priorities.

    The Board has welcomed interagency cooperation, which has helped give BBG
the “surge capacity” it needs to meet urgent, unexpected programming demands
that current appropriations do not address. For instance, recently the Department’s
Office of Counterterrorism requested that the Board expand U.S. broadcasting to
Somalia. In response, the Board quickly pooled resources with the Counterterror-
ism Office and the Bureau of Public Diplomacy and Public Affairs to augment the


OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   7 .


                        SENSITIVE BUT UNCLASSIFIED
                   SENSITIVE BUT UNCLASSIFIED



      programming. Other agencies for years have funded BBG broadcasts. For instance,
      the U.S. Agency for International Development has supported expanded VOA cover-
      age of health issues, and the Department has funded expanded election coverage in
      Africa. BBG also has benefited from Department of Defense assistance in establish-
      ing its transmitters in Afghanistan. Those familiar with this cooperation say it fully
      respects the BBG’s program content firewall protecting its broadcast integrity.

           Within the context of existing legislation, the Chairman is addressing the Board’s
      system of committees, wherein two or three governors are assigned special respon-
      sibilities for each of the entities or for broader functional tasks, such as overseeing
      the Language Services Review. The committees do not have ultimate authority, but
      rather recommend actions to the Board.

           The committee system allows individual governors to focus their expertise on
      specific issues and enhance the entities’ access to the Board through their com-
      mittee chairpersons. The Board is developing additional functional committees in
      areas such as communications, human resources, and budget development, which
      will address higher-level BBG-wide rather than single-entity issues. The OIG team
      endorses the Board’s consideration of these changes in the committee system that
      take maximum advantage of the governors’ expertise to address BBG-wide strategic
      issues and encourage governors to avoid focusing on single-entity issues that direc-
      tors of those entities can address.




8 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                   SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                    BOARD STAFF


    The Board’s collective CEO structure and the varied group of entities it su-
pervises require a strong professional staff. The Board and its staff ’s management
challenges in directing U.S. international broadcasting now are more complex than
those their predecessors faced during the Cold War. They supervise a multi-media,
research-driven broadcasting system, which has made its strategic planning, bud-
geting, and programming decisions more demanding. They also must match U.S.
international broadcasting human and technical resources to new, less predictable,
shifting foreign policy challenges. The staff supports monthly Board and committee
meetings, as well as executes the Board’s BBG-wide and single-entity directives. This
is demanding, and the staff is limited.

    The Board staff is highly competent and enthusiastic – with high expectations of
the Board under its new Chairman. The Board and its staff share a desire to make
the staff more effective in its supervision of the BBG entities. The Board staff rec-
ognizes the need to fine tune its provision of information to the Board, among other
functions, and has taken steps in that direction.

    Reorganizing and rationalizing the Board staff structure would allow the gov-
ernors to refocus more of their time and expertise from lower-level, entity-specific
supervisory activities to broader, higher level strategic decision making, taking best
advantage of their vision and expertise. This report provides several recommenda-
tions in that direction, including a human resources needs assessment to address
possible staff increases.

     The Board staff consists of the Executive Director, Congressional Coordina-
tor, Program Review and Strategic Planning Officer, Special Projects Officer, Stra-
tegic Planning Manager, Executive Assistant, Policy and Program Coordinator, and
a Presidential Management Fellow who serves as the Policy Analyst. In addition,
the Office of the General Counsel consists of eight employees and the Office of
the Chief Financial Officer of 30 employees. There are nearly a dozen vacancies in
these offices.

    The Board is filling a vacant Communications Officer position. The Board also
is considering moving the Office of Public Affairs from the IBB to the Board staff.
The Board also recently created a Director of Programming, but his responsibilities
are not fully defined.


OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   9 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       EXECUTIVE DIRECTOR AUTHORITIES
           BBG’s Executive Director is a career senior executive selected collectively by the
       Board. Because the Executive Director is a regular federal employee, the incumbent
       can provide valuable advice from a federal perspective to the Board, whose mem-
       bers are special employees from the private sector. According to the BBG Resource
       Book, the Executive Director is the principal liaison for BBG activities. The in-
       cumbent advises the Chairman and Board on planning matters and reviews the
       implementation of Board policy and programming decisions across the broadcasting
       entities. In addition, the Executive Director coordinates regularly with the Board,
       the IBB, and the grantees on mission and operational activities and serves as a liaison
       with other foreign affairs agencies on behalf of the Board and U.S. international
       broadcasting. The incumbent is responsible for preparing agendas for Board meet-
       ings.

           The Board should rewrite the position description of the Executive Director,
       which was last updated in 1999 when BBG was part of the U.S. Information Agency.
       The new position description should clarify and strengthen the role of the Executive
       Director in coordinating the new BBG staff offices, and particularly decisions bal-
       ancing the perspectives of the Office of the Chief Financial Officer and the Office
       of Strategic Planning. This report proposes the latter office below.

            The strength of the Executive Director’s position in maintaining a balance be-
       tween programming and budget imperatives becomes critical when hard decisions
       are to be made in times of limited resources. With the addition of the Director of
       Programming at the head of an Office of Strategic Planning, the Executive Director
       will be called to help maintain a balance between the Board’s budget staff ’s financial
       parameters and the Board’s programming staff ’s needs, helping to drive BBG-wide
       change and strengthen strategic planning perspectives in Board decisions.



          Recommendation 1: The Broadcasting Board of Governors should update
          the job description of the Executive Director to strengthen its lines of author-
          ity over newly augmented Board offices and staff. (Action: BBG)


            During Board staff reorganization, the Executive Director will have to make spe-
       cial efforts to create a transparent environment that will serve as a model throughout
       the BBG. Board staff members said that although there have been positive changes
       in their work environment, there was still room for improvement. Some of the staff
       said that they did not know what their colleagues were working on. Some felt that

10 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



communications between staff members could be enhanced. More regular full-staff
meetings would help the Board staff understand each other’s duties and reinforce
their roles, contributing to rationalization. The OIG team has made an informal
recommendation that Board full-staff meetings be held regularly.



HUMAN RESOURCES PLANNING
    The Board staff structure and responsibilities should be more fully rationalized.
BBG often relies on identifying strong, talented individuals and tasking them to carry
out the needs of the organization without reference to a well-defined staffing plan.
One IBB official who had served in many capacities said that the relations between
BBG, the IBB, and VOA appear to be a function of personalities with emphasis on
the interchangeability between overlapping position designations. Outdated Board
staff job descriptions and unclear organizational relations have left employees unsure
what their job responsibilities are and to whom they report. Transparency within the
staff has suffered. Some said that their own talents have not been fully used.

    BBG’s approach gives insufficient weight to the Chief Human Capital Officers
Act of 20024 provision that an agency’s workforce development strategy should be
based on its mission and strategic plan. The OIG team was told that the Board has
needed more staff for years, but had not defined the functions and skills needed in
the new positions. A lack of personnel planning along the lines of the Chief Human
Capital Officers Act, however, has hampered addressing staff development needs
and harmed staff morale and efficiency.

    Lack of reference to clear personnel structure may also have contributed to the
tendency for management to stretch BBG staff members to fill both their regular
positions and acting positions, including the Executive Director who has filled, con-
currently, the position of Acting IBB Director. Management simply may have had to
stretch its employees because it is hard to find qualified candidates for some vacan-
cies. An employee should fill only one well-defined position – the responsibilities of
which should reasonably represent a 40-hour work week. This tendency appeared to
extend down from BBG to IBB and VOA.




4
 5 USC § 1401 et seq.



OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   11 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           BBG has not updated its human resources strategy since 2005; therefore, a hu-
       man resources needs assessment of the Board staff would be very timely and help
       rationalize the staff structure around the changes discussed in this report. It also
       would establish a foundation for developing a hiring plan, including staffing increases
       that initial OIG team observations suggest may be warranted.



          Recommendation 2: The Broadcasting Board of Governors should develop
          a written human resources needs assessment for the Board staff from which it
          can develop and reinforce its structure and implement a hiring plan. (Action:
          BBG)




12 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                  HIRING FREEZE


    Since December 2003, a BBG-wide hiring freeze has slowed managers’ efforts to
replace employees who leave, and also introduced extra bureaucratic steps into the
hiring process, including the need for Board approval for freeze exemptions. The
situation has adversely affected morale and efficiency, and given rise to the percep-
tion of “micromanagement.” The Board implemented the freeze because of an un-
expected Congressional rescission of funds applying it to both BBG federal entities
and the grantees, except for the Middle East Broadcasting Networks. The latter was
exempted because it had been created only recently and needed staff to operate.

    Managers complained that to fill even the lowest level staff and/or to meet their
most critical needs they encountered lengthy delays and extra work. No vacancy
could be filled without the approval of the Board, which complicates these actions.
The Board staff stated that the difficult financial situation, which caused the freeze,
is ongoing. While a freeze can help to address short-term requirements, other means
can better deal with a funding issue that has continued for four years.

    During discussions of the hiring freeze, the Chief Financial Officer (CFO) said
she was planning to replace the freeze with a salary allocation for each entity, federal
and grantee, upon the enactment of the FY 2008 budget. Each entity could then
decide for itself what vacancies to fill and do so in a timely manner within the limita-
tions of the allocation. The inspection team agrees that this plan would result in a
major improvement. The Board has approved this plan. Because the present ineffi-
ciencies related to the hiring freeze must be addressed, the inspection team is making
a recommendation to ensure the plan is implemented.



    Recommendation 3: The Broadcasting Board of Governors should lift the
    agency-wide hiring freeze and implement the Board-approved system of salary
    allocations for each entity. (Action: BBG)




OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   13 .


                        SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED




14 .   OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




            RELATIONS WITH THE GRANTEES


    Critical to understanding the grantees’ relationship to BBG is the Board’s Con-
gressional mandate to supervise these entities’ operations and allocate their funds.
For this relationship to be the most productive, however, there must be a balance
between the Board’s need to supervise and the grantees’ need for some limited op-
erational independence. In general, the OIG team found the balance in the relation-
ship to be working. In the area of programming editorial independence, the OIG
team found no problems or complaints. Communications and information sharing
among the Board, Board staff, and the entities, however, could be fuller. In addition,
procedures for meetings among the Board, the Board staff, and the entities should
be fine-tuned. Recommendations 4 and 5 address these issues.



BOARD STAFF – GRANTEE COMMUNICATIONS AND INFORMATION
SHARING
    Governors serving on the grantee committees have frequent contact with the
entities and overall enjoy a positive relationship. Entity heads attend monthly meet-
ings of the whole Board and report on their operations. Yet, most issues brought
to the whole Board for consideration are filtered through the Board staff members
who generally summarize and analyze entity provided material to facilitate decision
making. Some entity staff questioned whether the Board staffs’ influence over deci-
sion making through their role in the entities’ presentations was too great. It is the
part-time Board’s prerogative to rely on its Board staff, but complete understanding
of issues is essential.

     Although the Board staff and the entities have frequent contact, the Board staff,
at times, does not provide necessary information to the entities. For instance, the
Board staff has failed, at times, to share entity salary data with the various agency en-
tities. For two years in a row, the grantees were asked by the Board for salary figures
to be used in a comparability study of their pay with that of VOA. The information
was given each year, but the Board staff did not provide the entities with the results
until November 2007. Some grantees explained that this data is needed for staff
management. For example, contract negotiations with unions are adversely affected
by the lack of comparative salary data.


OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   15 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



           Improvements in the sharing of information between the Board staff and
       the grantees would improve entity morale and foster efficiencies. Entity person-
       nel would feel the Board understands their perspectives on policies, and operations
       would be more fully integrated. The entities also would have the information they
       feel is necessary to carry out their responsibilities.



          Recommendation 4: The Broadcasting Board of Governors should develop
          and implement a plan to improve the exchange of information between the
          Board staff and other agency elements, including the grantees, to ensure ad-
          equate interaction and feedback. (Action: BBG)




       GRANTEE MEETINGS WITH THEIR BOARDS OF DIRECTORS
           The Board also serves as individual boards of directors for each of the grantees
       in accordance with the legislation establishing the agency. Directors’ meetings are
       usually held in conjunction with monthly Board meetings. Current practice is for
       the Board staff members to attend the grantee directors’ sessions. Entity officials
       perceive an impingement on their independence as they cannot confidentially discuss
       sensitive matters with their boards of directors. These meetings provide the only
       opportunity for a grantee to discuss issues with its entire board of directors. The
       grantees can request Board staff not to attend, but various individuals reported that
       this is awkward and not the accepted norm. Rather than routinely attending grant-
       ees’ boards of directors meetings, the Board staff would better absent themselves
       and be present on an exception, invitation basis.



          Recommendation 5: The Broadcasting Board of Governors should meet as
          the grantee boards of directors, with the agency’s Board staff attendance on an
          invitation basis. (Action: BBG)




16 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




    BROADCASTING BOARD OF GOVERNORS’
            BUDGET PROCESS


    Although BBG is a relatively small agency, the complexity of its structure creates
unique challenges for the Board and its staff in navigating the budget process. As
the “head” of the agency, the Board, as a single body, has a key role to play in both
the formulation and execution of the budget. However, the part-time status of the
individual Board members requires intense and careful coordination to ensure that
required deadlines are met and that the Board can respond nimbly to requests from
the Office of Management and Budget (OMB) and the Congress. The requirement
to present an integrated, coherent budget that incorporates input from BBG’s federal
entities and grantees further complicates the process.

    The CFO, a senior executive service position that reports directly to the Board, is
the linchpin of the agency’s budget process. As the process has grown more com-
plex due to tighter budgets, additional reporting requirements, and growth in BBG’s
programs, the role played by the CFO has become increasingly visible and thus more
vulnerable to criticism – much of it misplaced. Because the Board members are
part-time employees, the CFO has become the main conduit for relaying budget-
related Board decisions and requests to the entities, which has lead to a perception
among entity managers that the CFO exerts too much influence on the process and
that the CFO is responsible for the decisions rather than the Board.

    The CFO has strived to counteract the perception that her office has undue
influence, but key vacancies on her staff leave less time to provide structured feed-
back to the entities. The strictures of the budget process itself and the authority of
the Board regarding how and when information is shared are also factors. Much of
the information that the entities want are Board documents that the CFO is not at
liberty to disclose.

     As in other areas of BBG operations, the budget process would benefit from
greater transparency and communication from the Board and its staff to BBG enti-
ties. Although OMB praised BBG and, in particular, the CFO for presenting an in-
tegrated budget that was compliant with all requirements and for overall responsive-
ness to its requests, the internal process that produces the budget is viewed as very
labor-intensive and even confusing by BBG entities. Managers in both the federal



OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   17 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       and grantee entities complained that they were asked to provide extensive budget
       data and justifications but received little formal feedback in return from the Board or
       the CFO.

           The fact that most of their programs cannot be funded at the levels requested
       by the entities cannot be discounted as contributing to the level of complaints about
       the budget process and how budget decisions are made. Poor communication and
       information sharing among personnel within the entities may also be a factor, as well
       as unfamiliarity with the federal budget process on the part of some managers.

           The Board plans to meet with the entity heads, both federal and grantee, to
       discuss the budget process and areas for improvement in sharing information. At
       the working level, the CFO plans to hold brown bag lunches with middle managers
       to discuss the budget process and their respective roles. This is in addition to the
       quarterly meetings held between the CFO and the financial officers in each of the
       entities. The CFO also recently completed a revision of the section of the agency’s
       Manual of Operations and Administration that deals with grantee administration and
       is developing a handbook for the grantees based on the revised section.

           While these initiatives are promising, standard procedures for sharing budget
       information would ensure that the Board’s decisions are communicated clearly and
       appropriately to both the federal entities and grantees and dispel misperceptions
       regarding how decisions are made.



          Recommendation 6: The Broadcasting Board of Governors, in coordina-
          tion with its federal and grantee entities, should develop written procedures for
          communicating budget information to the entities at key stages of the budget
          formulation and execution process. (Action: BBG)




18 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




             STRATEGIC PLANNING SUPPORT


     One of the Board’s most important management oversight responsibilities is
setting the priorities and overall strategic direction of U.S. international broadcast-
ing. The Board staff does not include, however, a staff office to deal with strategic
planning and program management at a level comparable to the two existing Board
staff offices, the Office of the Chief Financial Officer, and the Office of the Gen-
eral Counsel. The three staff officers whose responsibilities include contributions
to BBG strategic planning (the Director of Strategic Planning, the Policy and Pro-
gram Officer, and the Program Review and Planning Officer) are individual officials.
During the current inspection, the BBG also hired a Director of Programming. The
relationship among these officials has not been fully established.

    Although the Board indicated in 2005 BBG letters to its House and Senate Ap-
propriations and Authorizing Committees of its intentions to establish the Office of
Strategic Planning and Performance Measurement under the direction of the Board,
this has not been accomplished. A strong, integrated BBG Office of Strategic Plan-
ning headed by a Chief Strategic Planning Officer would more fully support staff
management of strategic planning and associated matters. The office, in addition,
would provide better in-depth and coordinated staff support to all the BBG com-
mittees as well as the Board in the myriad tasks and responsibilities mandated to this
part-time, collective CEO body. The office would be the Board staff ’s lead office
in supporting the Language Service Review process, the Board’s principal de-facto
strategic planning mechanism. It could also facilitate Language Service Review com-
mittee efforts to expand transparency through increased, ongoing entity involvement
in the review.



    Recommendation 7: The Broadcasting Board of Governors should establish
    an Office of Strategic Planning. The responsibilities of the office would in-
    clude lead support for the Language Service Review committee. (Action: BBG)




OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   19 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       STRATEGIC PLANNING, LANGUAGE SERVICE REVIEW, AND
       BUDGET PROCESS
            The Language Service Review is the Board’s principal mechanism to review its
       progress and adjust the direction of its activities towards meeting its strategic goals.
       It is a critical element of international broadcasting activities. The Board developed
       the annual Language Service Review process to fulfill its Congressional mandate “to
       review, evaluate, and determine, at least annually, after consultations with the Secre-
       tary of State, the addition or deletion of language services.” Because of its strategic
       importance and weight in determining the need for reductions in force when services
       are cut, the results of the Language Service Review are an issue of concern at all
       levels of personnel throughout the agency.

           The Board established a Language Service Review oversight committee of two
       governors supported by a BBG staff of five members: the Executive Director, CFO,
       CFO’s Director of Strategic Management, the Program Review and Planning Of-
       ficer, and a Presidential Management Fellow. The committee advises the BBG on
       language service priorities and also addresses larger strategic issues, serving as the
       Board’s de facto strategic planning committee.

           Without the involvement and guidance of the Board staff ’s lead strategic plan-
       ning officer, Language Service Review decisions cannot be fully coordinated with the
       complete BBG strategic planning processes. The leadership of a Board staff Chief
       Strategic Planning Officer over the support staff to the Language Service Review
       committee would help it address strategic planning more fully. A recommendation
       for the establishment of this position is addressed above.

            The work of the Language Service Review committee focuses on two findings:
       priority and impact. These criteria derive mainly from strategic planning for interna-
       tional broadcasting and alignment with broad national policy objectives. Though an
       important element, the budget is just one of several criteria in the final analysis. Yet,
       the expertise of current staff support for the Language Service Review is more heav-
       ily weighted towards budgetary issues in development of language broadcast propos-
       als to the Board and to the OMB.




20 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED



    In part, this has resulted from the commendable progress the Board has made in
focusing on the budget and strategic planning processes. OIG Memorandum Report
of November 20045 noted that BBG took positive steps to link its strategic planning
and budget process. The CFO noted her office, at that time, did not play a role in
the creation of BBG’s strategic plan; therefore, the office hired a Director of Stra-
tegic Management to coordinate budgeting with strategic planning. This CFO staff
modification changed the staffing process from one of “linkage” to tighter “integra-
tion” of the budget and strategic planning processes.

   In the absence of an Office of Strategic Planning proposed elsewhere in this
report, the result of this staff enhancement was the expansion of the role of the
CFO beyond that of providing agency budget parameters within which entities must
make program proposals to that of developing the proposals themselves during the
Language Service Review. The BBG Office of Strategic Planning leading the process
would correct this staffing imbalance.



    Recommendation 8: The Broadcasting Board of Governors should include
    the proposed Office of Strategic Planning as the lead office, along with the Of-
    fice of the Chief Financial Officer, to provide in-depth strategic program plan-
    ning support to the Language Service Review committee. (Action: BBG)




LANGUAGE SERVICE REVIEW COMMITTEE
    Only two Board members compose the Language Service Review committee.
The committee oversees the annual Language Service Review of approximately 60
languages affecting all of the BBG broadcasting entities. This is a top-down strategic
analysis focusing on priority and effectiveness. As stated earlier, this is the heart of
the international broadcasting strategic operations. There should be a larger commit-
tee attendant to needs of both the government and the grantee broadcasting entities.
In this regard, the OIG team informally recommended that the Language Service
Review committee be composed of four Board members who also serve on Board
committees providing oversight to the federal and grantee entities.



OIG Report # IBO-A-05-01, Review of the Broadcasting Board of Governor’s Progress in
5

Linking its Budget Process and Strategic Planning – November 2004



OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   21 .


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED



       TRANSPARENCY AND CONGRESSIONAL INPUT
           BBG personnel, especially in the language services, regularly complain that the
       Language Service Review has not been transparent enough and that the criteria to
       cut language services are not clear. In addition, Congressional action on the BBG
       budget often does not support the programmatic cuts that grow out of the Language
       Service Review, using its prerogatives to request that BBG continue specific language
       service broadcasts through specific language services after the Language Service Re-
       view has assigned them a lower priority than needed to continue support. This input
       outside the Congressionally mandated decision process makes the Language Service
       Review’s function less clear.

           Numerous officials close to the Language Service Review have stressed the seri-
       ousness with which the Board takes the process. The Language Service Review com-
       mittee and its staff have sought to standardize the process, provide criteria on the
       IBB web site, and include the broadcast entities more fully in an ongoing deliberative
       process in which entity heads are given repeated opportunities for input into the pro-
       cess. These steps are very positive, and combined with direct, ongoing entity input,
       committee feedback, and entity director access to the final report of the Language
       Service Review deliberations, will make the process more fully transparent.

           It is not unusual for members of Congress to suggest the BBG continue specific
       international broadcasts that the Language Service Review process flags as lower pri-
       ority programs, and that are then proposed for reduction or elimination in the BBG’s
       budget request. Yet there does not appear to be a consultative process between the
       BBG and Congress during the Language Service Review deliberations over foreign
       policy priorities and service impact. The Board’s Congressional Coordinator and
       CFO coordinate with Congressional committees on BBG budgetary and program
       issues, but expanded efforts are needed to identify Congress’s concerns on program
       issues that might factor into the Language Service Review process.

            In order to make the Language Service Review exercise a comprehensive process
       representing the full range of U.S. government interests, the Board members, in a
       bipartisan manner, could liaise with Congress to learn its perspectives on program
       priorities for possible Board incorporation in the final Language Service Review
       analysis. These Board discussions with Congress would focus on program rather
       than budgetary issues. Such discussions would serve to make the Language Service
       Review process more comprehensive by including Congress’s program perspectives
       in its final analysis. This would make the final results more complete and the full
       process of establishing strategic priorities more transparent. This report contains an
       informal recommendation on these consultations.


22 .             OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                 FORMAL RECOMMENDATIONS


Recommendation 1: The Broadcasting Board of Governors should update the
  job description of the Executive Director to strengthen its lines of authority over
  newly augmented Board offices and staff. (Action: BBG)

Recommendation 2: The Broadcasting Board of Governors should develop a writ-
  ten human resources needs assessment for the Board staff from which it can de-
  velop and reinforce its structure and implement a hiring plan. (Action: BBG)

Recommendation 3: The Broadcasting Board of Governors should lift the agency-
  wide hiring freeze and implement the Board-approved system of salary alloca-
  tions for each entity. (Action: BBG)

Recommendation 4: The Broadcasting Board of Governors should develop and
  implement a plan to improve the exchange of information between the Board
  staff and other agency elements, including the grantees, to ensure adequate inter-
  action and feedback. (Action: BBG)

Recommendation 5: The Broadcasting Board of Governors should meet as the
  grantee boards of directors, with the agency’s Board staff attendance on an invi-
  tation basis. (Action: BBG)

Recommendation 6: The Broadcasting Board of Governors, in coordination
  with its federal and grantee entities, should develop written procedures for com-
  municating budget information to the entities at key stages of the budget formu-
  lation and execution process. (Action: BBG)

Recommendation 7: The Broadcasting Board of Governors should establish an
  Office of Strategic Planning. The responsibilities of the office would include lead
  support for the Language Service Review committee. (Action: BBG)

Recommendation 8: The Broadcasting Board of Governors should include the
  proposed Office of Strategic Planning as the lead office, along with the Office of
  the Chief Financial Officer, to provide in-depth strategic program planning sup-
  port to the Language Service Review committee. (Action: BBG)




OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   23 .


                        SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED




24 .   OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




              INFORMAL RECOMMENDATIONS


    Informal recommendations cover operation matters not requiring action by orga-
nizations outside of the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s
progress in implementing the informal recommendations.

Members of the Board staff are not fully aware of each other’s duties and activities,
undermining its functions and transparency.

Informal Recommendation 1: The Broadcasting Board of Governors Board staff
should hold full-staff Board meetings regularly.

The present Language Service Review committee is composed of only two gover-
nors and needs to more fully reflect BBG-wide perspectives in this crucial strategic
planning activity.

Informal Recommendation 2: The Broadcasting Board of Governors should
assemble the Language Service Review committee from four Board governors who
also serve as members of committees with responsibilities for both the federal and
grantee broadcasting entities.

Congress often uses its prerogatives to request that BBG continue broadcasts
through specific language services after the Language Service Review has assigned
them a priority lower than needed to continue support. This input outside the
Congressionally mandated decision process makes the Language Service Review less
comprehensive and its function less clear.

Informal Recommendation 3: Board members should liaise with Congress to
learn its perspectives on program priorities for possible Board incorporation in its
final Language Service Review priorities.




OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   25 .


                        SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED




26 .   OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                          PRINCIPAL OFFICIALS


Board of Governors


Chairman, BBG Board                                     James K. Glassman                       06/07
Secretary of State and
BBG Board Governor                                      Condoleezza Rice                        01/05
BBG Board Governor                                      Joaquin F. Blaya                        11/02
BBG Board Governor                                      Jeffrey D. Hirschberg                   12/02
BBG Board Governor                                      Blanquita Walsh Cullum                  11/02
BBG Board Governor                                      Mark David McKinnon                     01/07
BBG Board Governor                                      Edward E. Kaufman                       08/95
BBG Board Governor                                      Steven J. Simmons                       11/02



Principal Board Staff


Executive Director                                      Janice H. Brambilla                     06/06
Legal Counsel and
Acting General Counsel                                  Carol Booker                            11/00
Chief Financial Officer                                 Janet Stormes                           03/05




OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008           27 .


                        SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED




28 .   OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




                                 ABBREVIATIONS


BBG                            Broadcasting Board of Governors
CEO                            Chief Executive Officer
CFO                            Chief Financial Officer
IBB                            International Broadcasting Bureau
OMB                            Office of Management and Budget
VOA                            The Voice of America




OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   29 .


                        SENSITIVE BUT UNCLASSIFIED
          SENSITIVE BUT UNCLASSIFIED




30 .   OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008


          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED




       APPENDIX A – ORGANIZATIONAL CHART




   BROADCASTING BOARD OF GOVERNORS


(Grantees)                 (Oversight Board)            (Board Staff Offices)




   OIG Report No. ISP-IB-08-12, Inspection of the Broadcasting Board of Governors, February 2008   31 .


                           SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




SENSITIVE BUT UNCLASSIFIED
